            REVIEW OF THE
     FEDERAL ACQUISITION SERVICE’S
ALLIANT SMALL BUSINESS ORDERING GUIDE
   REPORT NUMBER A090151/Q/A/P09004

           September 9, 2009




                                         
 
•       Analyzed the Alliant SB ordering guide as provided by SB GWAC officials on April 3, 2009,
        which included but was not limited to (1) determining if the ordering guide’s content was clear
        and sufficient to minimize specific risks to the program; (2) verifying the accuracy of all
        references to the Federal Acquisition Regulation (FAR), the Alliant SB contract, websites, and
        the National Defense Authorization Act (NDAA); and (3) evaluating the degree to which the
        ordering guide is user-friendly.
•       Reviewed applicable subparts in the FAR and the NDAA.
•       Reviewed and analyzed the following GSA GWAC ordering guides: (1) VETS dated 2008 and
        (2) 8(a) STARS dated November 2008.
•       Reviewed and analyzed relevant information as of May 2009 for the following non-GSA
        GWACs: (1) National Aeronautics and Space Administration’s Solutions for Enterprise Wide
        Procurement IV and (2) National Institutes of Health Information Technology Acquisition and
        Assessment Center’s Chief Information Officer’s Solutions and Partners 2 Innovations.

We conducted this review between March 2009 and June 2009 in accordance with the generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.


                                            Results of Review

Our review identified that the Alliant SB ordering guide included contract requirements and
processes to support proper use of the contract, promote adequate competition, and result in best
value for the Government. However, our analysis identified specific improvements to better
communicate contract requirements and processes, while also mitigating the risk for potential
abuse of the contract. Specifically, we noted that guidance about the task order process should be
strengthened and the guide should address team arrangements. The ordering guide should be
organized to facilitate ease of use, and additional emphasis should be placed on the importance
and benefits of developing specific and clearly defined statements of work (SOWs). Other
recommended improvements included highlighting the benefits of streamlined acquisition
procedures and developing guidance for all elements of task order pricing.

Ensuring Proper Use of the Contract

Clearly outlining and explaining how to properly use the Alliant SB GWAC is necessary to ensure
that OCOs are awarding and administering task orders in accordance with procurement laws and
regulations. Even though the Alliant SB ordering guide references various contract requirements
and outlines specific ordering processes, guidance on processing a task order should be
strengthened, information regarding team arrangements should be included, and the ordering
guide should be better organized to facilitate the ease of its use.

Strengthen Guidance for Processing a Task Order

The primary purpose of a contract vehicle’s ordering guide is to provide clear and comprehensive
guidance regarding how to properly use that vehicle to place an order. The Alliant SB ordering
guide currently lists the steps to process a task order and provides a flow chart to illustrate that
process. However, OCOs could benefit from additional information about each individual task order
process step and improvements to the flowchart.



                                                       2 
                                                                                                           
In order to greater assist OCOs in processing task orders, each step within the order process
should be fully explained. The current Alliant SB ordering guide lacks adequate detail regarding
each step. For instance, the Order Evaluation step could outline specific methods and analysis
options, such as using independent government cost estimates to assess and determine best
value for a task order. Additionally, beneficial information regarding order processing is included in
other parts of the guide, when it could be inserted in this section as a more direct reference for the
OCO. If the information is not collectively organized in a central location, valuable information
could be overlooked.

In order to clearly depict the ordering process and provide consistent guidance on how to process
a task order, each action within the task order process flowchart should directly correspond to a
task order process step. We identified a useful practice in which an order process flowchart
identified the party (e.g., customer, contractor, or agency) that was responsible for each step.
Currently, the ordering guide does not succinctly explain the entire task order process. By
capturing all of this information in the flowchart, it can serve as a quick reference that clearly and
concisely illustrates the entire task order process.

Address the Allowability and Use of Team Arrangements

Per FAR 9.6, a “team arrangement” is when two or more companies form a partnership or joint
venture to act as a potential prime contractor, or when a prime contractor agrees to have at least
one other company act as a subcontractor. A team arrangement could be beneficial for both the
customer agency and the contractor in that it could create a situation where two contractors
complement each other’s capabilities to fulfill a customer’s need. Team arrangements are not
currently addressed in either the Alliant SB contract or the ordering guide. It is important that the
guide address the program’s policy regarding team arrangements, as well as highlight any
applicable FAR requirements. Specifically, within the Subcontracting section, the Alliant SB
ordering guide should state whether or not a team arrangement is encouraged or allowed, and if
so, should provide guidance regarding its use. The allowability of team arrangements and
guidance for their use should be clearly addressed in order to assist the OCOs and contractors to
properly use the contract.

Organize the Guide to Facilitate Ease of Use

For an ordering guide to be effective and to provide OCOs and contractors with pertinent
information to properly use the specified contract, discretion is necessary when selecting
information to be included. The information should also be presented in a manner which ensures
the guide is user-friendly.

Even though the Alliant SB ordering guide contains a substantial amount of useful information,
there are cases in which information provided is not essential to properly use the Alliant SB
contract. For example, there is currently information at the beginning of the guide that explains
other GSA GWACs. This information does not directly pertain to the usage of the Alliant SB
contract; therefore, it can be seen as a distraction to the other information available in the guide.
This concept also applies to information provided under the Delegation of Procurement Authority
(DPA) and Subcontracting sections. Both of these sections reference information that is not
specifically related to the requirements of the Alliant SB contract. For example the DPA section
states,

       The DPA training and DPA document arise out of GSA’s obligations to the Office of
       Management and Budget, are consistent with Section 865 of the Duncan Hunter


                                                    3 
                                                                                                          
       National Defense Authorization Act of 2009, P.L. 110-417 (“DHNDAA” or “NDAA
       2009”) and are in-line with the related recommendation of the Acquisition Advisory
       Panel/SARA Panel (authorized by Section 1423 of the Services Acquisition Reform
       Act of 2003).

We do not believe this background information is necessary to assist the OCO in using the Alliant
SB GWAC. There are also several instances where the information in the ordering guide repeats
the language from the contract verbatim. Including extraneous information unnecessarily
lengthens the ordering guide and makes the document more cumbersome to use. Not only may
OCOs be less likely to use a document that is too lengthy or difficult to follow, there is also a risk
that important guidance placed among superfluous information will be overlooked. The ordering
guide should be reviewed to include only information pertinent to the proper use of the Alliant SB
contract and to ensure that to the maximum extent possible, it is user-friendly.

Promoting Adequate Competition

A competitive environment assists the OCO in achieving a best value procurement. Furthermore,
attaining sufficient competition is a central objective in awarding any task order. In order to further
promote adequate competition, additional emphasis on developing SOWs is needed to enhance
the current information provided in the Alliant SB ordering guide.

Emphasize the Importance and Benefits of Specific and Clearly Defined Statements of Work

A specific and clearly defined SOW is critical to the facilitation of adequate competition. The GSA
OIG has conducted several reviews that have shown that competition may be restricted if the SOW
made available to the prospective contractors is too general. In these cases, a non-incumbent
contractor often does not have enough information to respond to the solicitation, thereby inhibiting
competition. The GSA OIG has brought this to FAS’s attention during the pre-award and award
phases of the Alliant SB contract. The most recent instance was through a recommendation in the
Alliant ordering guide report. At the exit conference for that review, FAS management indicated to
the audit team that they would incorporate their response to this recommendation in the Alliant SB
ordering guide prior to our review. After reading the Alliant SB ordering guide, we determined that
although the guide includes selected guidance regarding specific and clearly defined SOWs, it is
minimal and does not highlight the benefits of doing so. If this key point is not fully emphasized,
OCOs may not recognize the importance; therefore, unknowingly restrict competition during the
task order solicitation. By stressing the benefits of developing a specific and clearly defined SOW
in the ordering guide, the OCO may be more inclined to employ this practice, which could further
facilitate adequate competition.

Resulting in Best Value for the Government

FAS’s mission is to provide its customers with best value services, products, and solutions that
increase overall government effectiveness and efficiency. The Alliant SB ordering guide is an
opportunity for FAS to assist OCOs in obtaining best value during the task order award process.
Even though the ordering guide provides OCOs with information to help them attain best value,
additional guidance could be provided to highlight the benefits of streamlined acquisitions and
emphasize the importance of analyzing all elements of task order pricing.




                                                     4 
                                                                                                           
Highlight the Benefits of Streamlined Acquisition Procedures

Streamlined acquisition procedures are used to reduce the amount of time and resources
expended during the solicitation phase of a task order. In the Alliant ordering guide report, we
stated that the information in the guide regarding streamlined acquisitions could be strengthened
by adding information about the usage and benefits of employing such procedures. Prior to the
review of the Alliant SB guide, FAS informed us that they would strengthen the current guidance in
this guide to reflect that recommendation. While we commend FAS for incorporating additional
guidance regarding streamlined acquisition procedures into the current Alliant SB ordering guide,
the information does not outline the benefits of using this type of procurement procedure, as
recommended in the prior report. There are several benefits to streamlining the acquisition
procedures, which include (1) reducing the time and resources expended during the source
selection process; (2) lowering proposal preparation costs; and (3) improving the exchange of
information between the government and the offerors. If OCOs are not aware of the benefits of
streamlined acquisition procedures, they may be less likely to use this type of solicitation
procedure because of their comfort level associated with more traditional methods. By
emphasizing the benefits of streamlined acquisition procedures in the ordering guide, OCOs may
be more inclined to use these procedures when deemed beneficial and in turn, assist the customer
agency to attain a best value procurement.

Develop Guidance for All Elements of Task Order Pricing

In order to assist the customer agency in attaining a best value solution, the OCO must evaluate all
elements of a price proposal. Price proposals often include other costs and expenses not directly
related to labor, such as other direct costs (ODCs), general and administrative (G&A) expenses,
and option year pricing. There are risks associated with these non-labor items, such as possible
duplicate cost recovery of ODCs and G&A expenses, and failure to obtain a fair and reasonable
price for task order option years. We recommended in the Alliant ordering guide report that
information regarding the evaluation of these areas be incorporated into the Alliant ordering guide.
FAS indicated they would incorporate our recommendations from that report into the current Alliant
SB ordering guide; however, guidance for these specific areas was not included. Given that there
are risks associated with these elements of a price proposal, it is important that guidance is
developed for these areas in the ordering guide. By including this information in the guide, FAS
can help ensure that task orders awarded under the Alliant SB contract provide the best value to
customer agencies.


Recommendations

We recommend that the Commissioner of the Federal Acquisition Service:

      1. Strengthen the current Alliant SB guidance for processing a task order by (a) explaining
         each of the seven steps in the task order process; (b) placing all information that is directly
         related to a task order process step within that step’s explanation; and (c) adjusting the
         flowchart to illustrate the corresponding step and responsible party for each action.

      2. Address in the ordering guide whether or not team arrangements are allowed and/or
         encouraged under the contract and if so, provide the contract’s policy for using them.

      3. Organize the guide to facilitate ease of use such that only information pertinent to and
         helpful for using the contract is provided.


                                                      5 
                                                                                                            
    6 
          
        APPENDICES
 

 




               
                      
    REVIEW OF THE FEDERAL ACQUISITION SERVICE’S
      ALLIANT SMALL BUSINESS ORDERING GUIDE
         REPORT NUMBER A090151/Q/A/P09004

              MANAGEMENT RESPONSE



 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 

 




                        A-1
 
                                                   
                    REVIEW OF THE FEDERAL ACQUISITION SERVICE’S
                      ALLIANT SMALL BUSINESS ORDERING GUIDE
                         REPORT NUMBER A090151/Q/A/P09004

                                    REPORT DISTRIBUTION



Commissioner, Federal Acquisition Service (Q)                     3

Internal Control and Audit Division (BEI)                         1

Assistant Inspector General for Auditing (JA, JAO)                2

Assistant Inspector General for Investigations                    1




                                                 B-1
 
                                                                       
